TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Actions Are Needed to Ensure Proper Use
                    of Individual Taxpayer Identification
                       Numbers and to Verify or Limit
                          Refundable Credit Claims



                                        March 31, 2009

                            Reference Number: 2009-40-057




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(a) = Law Enforcement Criteria
 2(e) = Law Enforcement Procedure(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute (whichever is applicable)
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals
 5 = Information concerning a pending law enforcement proceeding




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           March 31, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Ensure Proper Use of
                             Individual Taxpayer Identification Numbers and to Verify or Limit
                             Refundable Credit Claims (Audit # 200840020)

 This report represents the results of our review to determine whether the Internal Revenue
 Service (IRS) has proper controls in place to detect and deter improper use of Individual
 Taxpayer Identification Numbers (ITIN) when processing tax returns. This audit was conducted
 as part of our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS issues ITINs to help individuals comply with the United States (U.S.) tax laws and
 provide a means to efficiently process and account for tax returns. The issuance of ITINs was
 intended to address concerns by the IRS and the Department of the Treasury that, without a
 unique number, taxpayers could not be identified effectively. There has been a significant
 increase in the use of ITINs since the IRS began issuing them in Tax Year (TY) 1996. There
 was a 246 percent increase from 530,000 in TY 2001 to more than 1.8 million in TY 2007.
 Improvements to the ITIN Program are needed to ensure that the Program is meeting its intent
 and that refundable claims are verified.
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



Synopsis
Any person required to file a tax return is required to include an identifying number, referred to
as a taxpayer identification number. For the majority of filers, the taxpayer identification
number is the individual’s Social Security Number
(SSN). Non-U.S. citizens who do not have an
                                                                  The ITIN is available to
employment authorization must prove a valid nonwork           individuals  who are required to
reason for requesting an SSN in order to receive one. 1        have a taxpayer identification
Consequently, many individuals are unable to obtain              number for tax purposes,
an SSN. Individuals who are unable to obtain an SSN             but do not have and are not
but have a tax return filing requirement can be either           eligible to obtain an SSN.
resident or nonresident aliens. The ITIN is available
to these individuals.
The IRS has initiated a number of actions in an attempt to improve the processing of tax returns
from individuals who are unable to obtain an SSN. Despite these efforts, improvements to the
ITIN Program are still needed.
•   Individuals are assigned multiple ITINs, which results in the issuance of erroneous refunds.
    A recent IRS study 2 identified that 4 percent of individuals applying for ITINs already had an
    ITIN assigned to them and that 30 percent of these individuals were assigned another one.
    The study further estimated that approximately $60 million per year in erroneous refunds
    were issued for ITIN cases. Some of these resulted from the same individual filing multiple
    tax returns under the different identification numbers.
•   ITINs are improperly used for employment. Employers are reporting wage income under an
    ITIN. The law establishing the ITIN specifically states that it is not an SSN or an account
    number for use in employment for wages. 3 Our review of TY 2006 Wage and Tax
    Statements (Form W-2) identified 292,992 employers that filed 790,701 Forms W-2 with
    ITINs reporting wages totaling more than $9.5 billion. The number of noncompliant
    employers increased 15 percent from 253,742 in TY 2004 to 292,992 in TY 2006. Although
    the IRS has data available to identify these individuals and employers, no significant actions
    are taken to address the noncompliance.



1
  Generally for obtaining Government benefits (Federal, State, or local) to which the individual is entitled.
2
  IRS Lean Six Sigma study entitled, Individual Taxpayer Identification Number, Control Tollgate, dated
February 21, 2008. The data contained in the study were collected in October and November 2007 and were not
statistically valid for the entire applicant pool, but rather were used as a basis point specifically for the Tax
Examiner prescreening process.
3
  Treas. Reg. § 301.6109.
                                                                                                                    2
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



Recommendations
We recommended that the Commissioner, Wage and Investment Division:
•   Develop a process to identify individuals who are improperly using ITINs for work purposes
    and develop outreach efforts with the Social Security Administration to address the improper
    use.
•   Coordinate with electronic tax software preparation companies to initiate actions to limit the
    automatic population feature of the taxpayer identification numbers on Forms W-2 for
    Forms W-2 associated with e-filed ITIN tax returns.
•   Develop a process to ensure that accurate tax information is input into IRS systems from both
    paper and e-filed tax returns filed with an ITIN.
•   Develop a process to ensure the residency requirement for the CTC and ACTC is met on
    ITIN returns claiming the credits.

Legislative Recommendation
Legislation is needed to clarify whether or not refundable tax credits such as the ACTC may be
paid to filers without a valid SSN and, if these credits may not be paid, to provide IRS math error
authority 8 to disallow associated claims for the credits. Disallowance of the ACTC to filers
without a valid SSN would reduce Federal outlays by $8.9 billion over 5 years.

Response
IRS management agreed with two recommendations and disagreed with three recommendations.
The IRS agreed to continue to work with electronic tax software preparation companies and
remind them of the problem of automatic population of the ITIN in the SSN field. The IRS also
agreed to explore with the Department of the Treasury legislative changes to address the
payment of refundable credits to taxpayers who file without an SSN.
Management does not plan to work with the SSA to develop outreach efforts to address the
improper use of the ITIN for employment. They believe their involvement would be a
duplication of the SSA’s efforts. Management did not agree to ensure that accurate tax
information is input into IRS systems from both paper and e-filed tax returns with an ITIN.
Furthermore, management did not agree to develop a process to ensure the residency requirement
for the CTC and ACTC is met on ITIN returns claiming the credits. The IRS states that, without

8
 Math error authority provides the IRS with the ability to systemically identify errors and disallow associated claims
for refunds associated with the erroneous claims.
                                                                                                                    4
                    Actions Are Needed to Ensure Proper Use of Individual
                        Taxpayer Identification Numbers and to Verify
                              or Limit Refundable Credit Claims


Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.




                                                                                              6
                             Actions Are Needed to Ensure Proper Use of Individual
                                 Taxpayer Identification Numbers and to Verify
                                       or Limit Refundable Credit Claims




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          The Internal Revenue Service Receives Millions of Forms W-2
          With Invalid Identification Numbers ............................................................Page 5
          Improvements Can Be Made to the Individual Taxpayer
          Identification Number Program ....................................................................Page 6
                    Recommendation 1:........................................................Page 10

                    Recommendations 2 and 3: ..............................................Page 13

                    Recommendation 4:........................................................Page 18

                    Recommendation 5:........................................................Page 19


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 20
          Appendix II – Major Contributors to This Report ........................................Page 23
          Appendix III – Report Distribution List .......................................................Page 24
          Appendix IV – Outcome Measures...............................................................Page 25
          Appendix V – Methods for Employers to Verify Work Eligibility ..............Page 27
          Appendix VI – Rules for Claiming the Child Tax Credit and the
          Additional Child Tax Credit .........................................................................Page 29
          Appendix VII – Management’s Response to the Draft Report.....................Page 30
                  Actions Are Needed to Ensure Proper Use of Individual
                      Taxpayer Identification Numbers and to Verify
                            or Limit Refundable Credit Claims




                              Abbreviations

ACTC                   Additional Child Tax Credit
CTC                    Child Tax Credit
DHS                    Department of Homeland Security
e-file; e-filed        Electronic file; electronically filed
IRS                    Internal Revenue Service
ITIN                   Individual Taxpayer Identification Number
SSA                    Social Security Administration
SSN                    Social Security Number
TIGTA                  Treasury Inspector General for Tax Administration
TY                     Tax Year
U.S.                   United States
                       Actions Are Needed to Ensure Proper Use of Individual
                           Taxpayer Identification Numbers and to Verify
                                 or Limit Refundable Credit Claims




                                        Background

Employers have a legal obligation to ensure that they are not hiring individuals unauthorized to
work in the United States (U.S.). Employers have to complete the following actions to comply
with legal requirements regarding verifying eligibility to work and administration of tax laws:
•   Work Eligibility – The employer is required to complete an Employment Eligibility
    Verification (Form I-9). Both the Department of Homeland Security (DHS) and the Social
    Security Administration (SSA) provide various methods for employers to verify work
    eligibility. See Appendix V for a description of methods provided for verification.
•   New Hire Reporting – The employer is required to report newly hired employees to a
    designated State new hire registry.
•   Income Tax Withholding – An Employee’s Withholding Allowance Certificate (Form W-4)
    must be completed.
•   Name and Social Security Number (SSN) – The employer is
    required to record each new employee’s SSN when completing the
    Wage and Tax Statement (Form W-2). Although the employer
    should ask to view the employee’s social security card, there is no
    requirement that the card be viewed and, therefore, no requirement
    to ensure the authenticity of the SSN.

The Individual Taxpayer Identification Number (ITIN) was created to provide
individuals who are not eligible to obtain an SSN with an identification number for
tax purposes
The Internal Revenue Service (IRS) issues ITINs to help individuals comply with the U.S. tax
laws and provide a means to efficiently process and account for tax returns. Only individuals
who have a valid filing requirement or who are filing a tax return to claim a refund of
over-withheld tax are eligible to receive an ITIN. The ITINs are issued regardless of an
individual’s immigration status. The issuance of an ITIN does not:
•   Change an individual’s immigration status.
•   Entitle the individual to social security benefits.
•   Entitle the individual to work in the U.S.
•   Entitle the individual to the Earned Income Tax Credit.


                                                                                           Page 1
                            Actions Are Needed to Ensure Proper Use of Individual
                                Taxpayer Identification Numbers and to Verify
                                      or Limit Refundable Credit Claims



Individuals who are unable to obtain an SSN but have a tax return filing requirement can be
either resident or nonresident aliens. The ITIN is available to individuals who are required to
have a taxpayer identification number for tax purposes, but do not have and are not eligible to
obtain an SSN. The distinction between a resident and nonresident alien is important because
each is taxed differently. Resident aliens must follow the same tax laws as U.S. citizens.
Specifically, income from all sources, both within and outside the U.S., is taxed and the same tax
forms used by U.S. citizens are required to be filed. Nonresident aliens must file a tax return
only if they are engaged in a trade or business in the U.S. or if they have any other U.S. sources
of income on which the tax was not fully paid by the amount withheld. Nonresident aliens file
using a U.S. Nonresident Alien Income Tax Return (Form 1040NR).
The ITINs are not valid identification outside the tax system. To obtain an ITIN, an alien
individual, a spouse, or qualifying dependent must complete an Application for IRS Individual
Taxpayer Identification Number (Form W-7). Most individuals must attach a Federal income tax
return to the application to ensure the ITINs are being used for their intended tax administration
                                        purpose. In addition, the individual applying for an ITIN
                                        must submit proof of identity. An original, certified, or
   Individuals applying for an ITIN     notarized copy of an unexpired passport is the only
      must submit documentary           document that is accepted for both identity and foreign
      evidence to establish their       status. If the individual does not have a passport, the
      identity and foreign status.      individual must provide a combination of at least two or
                                        more current and unexpired documents to prove identity
                                        and foreign status. Medical and school records can be
provided for dependents under age 14 (under age 18 if a student) and can be used to establish
foreign status only if they are foreign documents. For school and medical records that do not
have expiration dates, the issuing date must be within the last 12 months. All supporting
documents must show the individual’s name and support the claim of foreign status. At least one
document must show the individual’s photograph. 1
There has been a significant increase in the use of ITINs since the IRS began issuing them in Tax
Year (TY) 1996. Figure 1 shows a 246 percent increase in the number of individual income tax
returns filed using ITINs and reporting wages from TY 2001 to TY 2007.




1
    Photographs are not required for dependents under age 14 or under age 18 if a student.
                                                                                             Page 2
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



      Figure 1: Growth of Tax Returns Filed Using ITINs and Reporting Wages
                                                                 2001          2007        % Change
              Total Individual Income Tax Returns               530,000      1,835,000          246%
              Paper-Filed Returns                               444,000        950,000          114%
              Electronically Filed (E-Filed) Returns             86,000        885,000          929%
             Sources: Data for TY 2001 were obtained from a prior Treasury Inspector General for
             Tax Administration (TIGTA) report. 2 Data for TY 2007 were obtained from analysis of
             the IRS Returns Transaction File. 3 Data was rounded to the nearest thousand.
The number of resident aliens assigned ITINs has increased considerably as
compared to the number of ITINs assigned to nonresident aliens
Foreign individuals are considered a resident alien if they meet one of two tests for the calendar
year—the green card test or the substantial presence test. 4 An individual meets the green card
test if at any time during the calendar year he or she was a lawful permanent resident of the U.S.
according to the immigration laws (and this status has
not been rescinded or abandoned). These individuals are
able to obtain SSNs, but depending on their immigration         Resident aliens accounted for
status, the SSN may be a nonwork SSN. An individual             93 percent of the total number
                                                                        of ITINS issued.
meets the substantial presence test if he or she was
physically present in the U.S. for at least 31 days during
the current year, and 183 days during the 3-year period
that includes the current year and the 2 years immediately before (with some limited exceptions).
These individuals may or may not be able to obtain an SSN, depending on their immigration
status (some individuals meet both tests). Foreign individuals are considered a nonresident alien
for any period they are neither a U.S. citizen nor a U.S. resident alien. 5
The number of resident aliens assigned ITINs has increased considerably when compared
with the number of ITINs assigned to nonresident aliens. In fact, resident aliens have
become the primary users of the ITIN. In 1996, a total of 24,277 resident aliens were
assigned ITINs, accounting for 40 percent of all ITINs issued. By 2006, a total of
1,456,214 resident aliens were assigned ITINs, which accounted for 93 percent of all
ITINs issued. See Figure 2.


2
  The Internal Revenue Service’s Individual Taxpayer Identification Number Creates Significant Challenges for Tax
Administration (Reference Number 2004-30-023, dated January 2004).
3
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
4
  26 U.S.C. § 7701.
5
  It is important to note that the definition of “U.S. Resident Alien” differs for immigration laws versus the tax laws.
Throughout this report, we are referring to the tax law definition.
                                                                                                                Page 3
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



    Figure 2: Comparison of ITINs Issued to Resident Versus Nonresident Aliens
                            TY 1996 Through TY 2008 6

      1,800,000
      1,600,000                 Nonresident Aliens
      1,400,000                 Resident Aliens
      1,200,000
      1,000,000
        800,000
        600,000
        400,000
        200,000
              0
                   1996 1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008*

                                                                         * 2008 figures are through 11/23/2008

Source: TIGTA analysis of the IRS ITIN Database. 7

This review was performed at the IRS Campus 8 in Austin, Texas. It included discussions with
personnel in the ITIN Program Office, ITIN Operations Unit, Submission Processing function,
Accounts Management function, Office of Electronic Tax Administration, Six Sigma office, and
the Automated Underreporter function in the Wage and Investment Division. In addition, we
met with personnel in the Small Business/Self-Employed Division, the Office of Modernization
and Information Technology Services, the SSA Office of the Inspector General, the DHS, and
the State of California Franchise Tax Board. The review was performed during the period
January through December 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




6
  Figures presented are not inclusive of the entire ITIN population. There is a small percentage of additional
categories not reflected. However, these categories make up only 5 percent of the total ITIN population and by 2008
accounted for only 3 percent of the ITINs issued that year.
7
  The ITIN Database (also known as the ITIN Real-Time System) is a modernized application processing system
used to control and track Forms W-7 and Acceptance Agent Applications. It also provides management
information.
8
  The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                                 Page 4
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims




                                      Results of Review

The Internal Revenue Service Receives Millions of Forms W-2 With
Invalid Identification Numbers
Despite the actions employers are required to take to verify an individual’s eligibility to work,
the IRS continues to receive millions of Forms W-2 with a name and/or identifying number that
does not match SSA records. Figure 3 identifies the number of Forms W-2 on which the name
and/or identifying number shown did not match SSA records.
                  Figure 3: Forms W-2 With Invalid Identification Numbers
                                 TY 2003 through TY 2006
                                                     2003              2004               2005            2006
    Forms W-2 Received                            226,575,000       231,146,000         238,030,000    243,283,000
    Forms W-2 With Invalid Information               7,811,000        7,990,000           9,210,000      9,201,000
    Percent Invalid                                       3.4%              3.5%              3.9%             3.8%
                                                                                    9
Source: TIGTA analysis of Forms W-2 on the IRS Information Returns Master File. Numbers were rounded to the
nearest thousand.

The IRS is responsible for tax collection and enforcement in the U.S. and is required to accept
                     Forms W-2 with invalid identification numbers as the tax law does not
                     distinguish between legal or illegal income. If the income is taxable, the
                     person receiving the income is required to file a Federal tax return.
                     Specifically, the Internal Revenue Code requires all individuals to file a
                     Federal tax return if they have income subject to U.S. tax and the income
                     equals or exceeds the exemption amount. 10 These obligations extend to
                     both U.S. citizens and foreign individuals.


9
  The Information Returns Master File contains tax information reported from third parties for the current and prior
5 tax years.
10
   The exemption amount here refers to a combination of personal exemptions and the standard deduction and is
based on a combination of filing status, age, and blindness. This information is summarized for U.S. citizens and
resident aliens in the first section (Filing Information) of Your Federal Income Tax (Publication 17). Nonresident
aliens are more limited in their choices of filing status and claims for personal exemptions and are generally not
allowed the standard deduction. As a result, they would have a lower exemption amount with regards to the
requirement to file a tax return. More information is available in the U.S. Tax Guide for Aliens (Publication 519).
For TY 2006, the exemption referred to in this section of the Internal Revenue Code ranges from $3,300 to as much
as $18,900.
                                                                                                             Page 5
                             Actions Are Needed to Ensure Proper Use of Individual
                                 Taxpayer Identification Numbers and to Verify
                                       or Limit Refundable Credit Claims



Further, any person required to file a tax return is required to include an identifying number,
referred to as a taxpayer identification number. For the majority of filers, the taxpayer
identification number is the individual’s SSN. 11 To obtain an SSN, an individual must submit to
the SSA an Application for a Social Security Card (Form SS-5) and prove his or her age,
identity, and U.S. citizenship or current lawful, work-authorized immigration status. Various
documents need to be provided to substantiate age, identity, citizenship, and immigration status.
Individuals over the age of 12 who have never received an SSN must apply in person.
Non-U.S. citizens who do not have an employment authorization must prove a valid nonwork
reason for requesting an SSN in order to receive one. 12 Consequently, many individuals are
unable to obtain an SSN. This presents a problem for tax administration because the Internal
Revenue Code requires foreign investors and individuals working without authorization in the
U.S. to file a tax return and pay any Federal income taxes owed. As explained by the IRS
Commissioner in Congressional testimony on February 16, 2006, “Our [the IRS’] job is to make
sure that everyone who earns income within our borders pays the proper amount of taxes, even if
they may not be working here legally.”

Improvements Can Be Made to the Individual Taxpayer Identification
Number Program
The IRS has initiated a number of actions in an attempt to improve the processing of tax returns
from individuals who are unable to obtain an SSN. These actions include:
•      Creating and issuing ITINs beginning in July 1996.
•      Establishing the ITIN Program Office in early Calendar Year 2004. The mission of the
       office is to ensure ITINs are issued timely to qualifying individuals and used only for tax
       administration purposes.
•      Developing and issuing Understanding Your IRS Individual Taxpayer Identification Number
       (Publication 1915) to assist the public in understanding the requirements to obtain an ITIN as
       well as the specific purpose for which the ITIN is to be used.
•      Requiring applicants to attach a completed tax return to the application for an ITIN.
•      Updating procedures to no longer issue ITINs on a card like a social security card. This
       change was to minimize or eliminate confusion between ITINs and SSNs that might arise
       based on similar appearances.




11
     26 C.F.R. 301.6109-1.
12
     Generally for obtaining Government benefits (Federal, State, or local) to which the individual is entitled.
                                                                                                                   Page 6
                           Actions Are Needed to Ensure Proper Use of Individual
                               Taxpayer Identification Numbers and to Verify
                                     or Limit Refundable Credit Claims



•      Reducing the number of acceptable documents required to be provided during the application
       process. This change was to provide individuals applying for an ITIN with better, more
       consistent, and faster service.
Despite these efforts, improvements to the ITIN Program are still needed. We identified the
following issues with the ITIN Program:
1. Individuals are assigned multiple ITINs.
2. The ITINs are being improperly used for employment.
3. Incomplete or inaccurate information is being input to IRS systems from tax returns filed
   with ITINs.
4. Billions of dollars in tax credits are provided to ITIN filers without verification of eligibility.
These problems stem from the fact that the IRS’ primary focus is on ensuring individuals can
obtain an ITIN, without ensuring that individuals fully comply with ITIN Program requirements
and guidelines.

Individuals are assigned multiple ITINs, which results in the issuance of
erroneous refunds
Assigning multiple ITINs to the same individual defeats the purpose of the ITIN. Prior to the
establishment of the ITIN, tax returns filed by individuals who were not eligible for SSNs were
assigned temporary IRS numbers in order to process their tax returns. The temporary IRS
numbers were associated with the tax return and not the individual filing the return. Subsequent
tax returns filed by the same individual were assigned different numbers. Consequently, the
same individual would have numerous IRS numbers assigned to their tax returns without a
common identifying number being assigned to the individual. Without a permanent taxpayer
identification number assigned to each specific individual, the individual could not be identified
efficiently and reliably.
To address the problem of multiple identifying numbers being assigned to the same individual,
the Code of Federal Regulations was changed in 1996 to provide for the issuance and use of
ITINs. 13 The regulations were intended to address the concern by the IRS and the Department of
the Treasury that, without a unique number, taxpayers could not be identified effectively.




13
     Treas. Reg. § 301.6109.
                                                                                               Page 7
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



A recent IRS study 14 identified that 4 percent of individuals applying for ITINs were from
individuals that already had an ITIN assigned to them and that 30 percent of these individuals
were assigned multiple ITINs. The study further
estimated that approximately $60 million per year in
erroneous refunds were issued for ITIN cases routed to the        An IRS study identified that
Accounts Management function. Some of the erroneous              some ITIN applicants already
refunds resulted from the same individual filing multiple                 had an ITIN.
tax returns under the different identification numbers and
receiving a tax refund for each. The IRS study reported
that the process used to ensure multiple ITINs are not assigned to the same individual was
inefficient. The inefficiencies included:
•    Checks for duplicate status were not made until after the application for an ITIN was
     manually entered into the ITIN Database.
•    Previously rejected applications were not considered when processing a subsequent
     application. IRS guidelines required this check, but this was waived to improve the
     productivity of processing the ITIN applications.
To address these issues, the study recommended the development of new procedures to include a
check for a duplicate status before entering the ITIN application data and a process to flag
potential duplicates for further research. The IRS cites that the new procedures have reduced the
percentage of individuals being assigned another ITIN to 6 percent. The IRS is attempting to
reduce this percentage further by streamlining local prescreening instructions for all Tax
Examiners. We have an ongoing audit that will include an assessment of the efficiency and
effectiveness of IRS processing of Forms W-7. 15

ITINs are improperly used for employment
Employers are reporting wage income under an ITIN. The law establishing the ITIN specifically
states that the ITIN is not an SSN or an account number for use in employment for wages. 16 IRS
guidelines reiterate this position by specifying that an ITIN is to be used for Federal income tax
purposes only and is not valid for work purposes. However, our review of TY 2006 Forms W-2
identified 292,992 employers that filed 790,455 Forms W-2 with ITINs reporting wages totaling
more than $9.5 billion. The number of noncompliant employers increased 15 percent from
253,742 in TY 2004 to 292,992 in TY 2006. See Figure 4 for comparative statistics.


14
   IRS Lean Six Sigma study entitled, Individual Taxpayer Identification Number, Control Tollgate, dated
February 21, 2008. The data contained in the study were collected in October and November 2007 and were not
statistically valid for the entire applicant pool, but rather were used as a basis point specifically for the Tax
Examiner prescreening process.
15
   Processing Applications for Individual Taxpayer Identification Numbers (Audit # 200940006).
16
   Treas. Reg. § 301.6109.
                                                                                                             Page 8
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



                                    Figure 4: Forms W-2 Filed With ITINs
                                                                                                Employers
                                                      ITIN                                      Reporting
                   Total          Forms W-2        Forms W-2           Total Wages              Wages on
                Forms W-2          With ITIN       Reporting         Reported on ITIN              ITIN
        TY      Researched          Payee            Wages              Forms W-2               Forms W-2

       2004      231,145,713          912,697          911,861            $9,827,525,648             253,742

       2005      238,030,192          672,329          672,015            $7,769,425,043             223,855

       2006      243,282,891          790,701          790,455            $9,564,288,500             292,992

      Total      712,458,796        2,375,727        2,374,331           $27,161,239,191             770,589
     Source: TIGTA analysis of Forms W-2 on the IRS Information Returns Master File.

Although the IRS has data available to identify employers reporting wages and individuals
improperly working under an ITIN, no significant actions are taken to address the
noncompliance. The IRS’ position is that a liberal due diligence standard for employers serves
an important role in tax administration. 17 This is despite prohibitions cited both within the law
that established the ITIN and IRS guidelines. The former IRS Commissioner stated in
Congressional testimony on February 16, 2006, “We must make sure that any change in the
current system encourages the type of behavior that we desire from both employees and
employers. Imposing procedures on employers that are too stringent or requiring too much
documentation from employees may have the effect of driving certain economic activities
‘underground.’ At least now we are collecting some taxes in these areas, and we are working to
collect even more.” The IRS continues to maintain this position.
The SSA has a program that each year sends a letter (Employee No-Match Letter) to individuals
the SSA identifies as having Forms W-2 with a name and/or identifying number that does not
match SSA records. Individuals with an ITIN on their Forms W-2 also receive an Employee
No-Match Letter. The letter requests that the individual check the reported information and
provide the SSA and his/her employer with corrected information. Furthermore, the SSA had
also been sending a similar letter to employers (Employer No-Match Letters). In August 2007, a
Federal court issued an order temporarily blocking the government from implementing a DHS
rule, Safe Harbor Procedures for Employers Who Receive a No-Match Letter. The order also
blocked the SSA from sending letters to notify employers of the rule. While this matter is
pending, the SSA has also stopped sending the Employer No-Match Letters.



17
  If an employer makes or repeats a request for an accurate SSN, it has performed due diligence and has reasonable
cause to believe the SSN is correct. As a result, under I.R.C. § 6724, a penalty assessed against an employer under
I.R.C. § 6721 will be abated.
                                                                                                            Page 9
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



We believe the IRS should consider additional actions to advise employees and employers in the
instances that ITINs are being improperly used for employment. Because the SSA already has a
notice process, the best method may be to provide information to the SSA so that the no-match
letters for these individuals (and their employers if these letters are resumed) provide more
specific information on the reason for the no-match and the limitations of an ITIN.

Recommendation
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Develop a process to identify individuals who are improperly using
ITINs for work purposes, as well as those employers accepting the ITIN for wage reporting, and
develop outreach efforts with the SSA to address the improper use of the ITIN.
        Management’s Response: Management disagreed with this recommendation
        because the SSA has a program in place called the Employee No-Match Letter that
        requests correct information from individuals. The SSA has also been sending similar
        letters to employers, but this was suspended pending resolution of a court case.
        Regardless of the current status of the Employer No-Match Letters, management believes
        the SSA is the correct agency to work with the taxpayers and their employers regarding
        this issue. IRS involvement would be a duplication of the SSA efforts.
        Office of Audit Comment: Because the ITIN is a number issued by the IRS, we
        believe it is the IRS’ responsibility to educate individuals and employers of its
        limitations, especially in the instances that the IRS knows it is being used for
        employment. Since our recommendation was for the IRS to work with the SSA on this
        issue, it should not result in duplicate efforts.

Incomplete or inaccurate information is being input to IRS systems from tax
returns filed with ITINs 18
Incomplete or inaccurate information is being input into IRS systems when a tax return is filed
with an ITIN and an attached Form W-2 contains an SSN which does not belong to the
individual filing the tax return. Specifically, the IRS does not transcribe information from
Forms W-2 for paper-filed tax returns. In addition, some tax preparation software packages
automatically populate the identification number on the electronic Form W-2 (for e-filed tax
returns) with the identification number reported on the tax return, i.e., the ITIN. This occurs
even though there is an SSN on the Form W-2 which does not belong to the individual filing the
return. This automatic population feature diminishes the potential benefits of receiving
information from these e-filed returns.

18
  An SSN is needed for work purposes, but if an individual is not eligible for an SSN, an SSN may be used that
does not belong to this individual.
                                                                                                         Page 10
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



Without an effective process to capture complete and accurate information from both paper and
e-filed tax returns with an ITIN, the IRS will not have the data needed to make informed business
decisions as to the impact on tax administration resulting from these mismatches. Improving its
process to identify tax returns that are filed with an ITIN and have an attached Form W-2 with an
SSN that does not belong to the return filer would facilitate the IRS’ ability to determine the
nature and extent of the mismatches and minimize taxpayer burden related to the downstream
effects of associating reported income with the wrong wage earner.
No actions have been taken to capture Form W-2 information attached to paper returns
filed by individuals with ITINs. In September 2002, an IRS task force recommended that an
automated system be developed that would identify tax returns filed with an ITIN when the
attached Forms W-2 listed an SSN that did not belong to that individual. 19 The IRS did not take
this action, citing that it wanted to study the issue further. To date, there still has been no
progress in developing a process to track ITIN-filed paper tax returns with a Form W-2 SSN not
belonging to the individual filing the tax return.
To determine the number of ITIN-filed tax returns with a Form W-2 SSN that did not belong to
the individual, we identified a population of 1,621,846 TY 2006 ITIN-filed tax returns with
reported wages more than $39.4 billion. 20 We reviewed a random sample of 230 tax returns
(86 e-filed and 144 paper filed) that had a total of 363 associated Forms W-2 wages totaling
more than $11.8 million. Our review of the 144 paper returns showed that 203 (91 percent) of
the 224 attached Forms W-2 contained an SSN that did not belong to the individual filing the
paper tax return. These mismatches are not captured by the IRS because Form W-2 information
is not transcribed from paper tax returns during processing. We raised this issue in a prior
review, but the IRS’ position was that information is not transcribed from paper returns because
of the cost to develop and implement the required procedures. 21
The auto-populate feature in tax preparation software packages diminishes the potential
benefits cited in support of the IRS changing its e-file system. Prior to the 2007 Filing
Season, 22 the IRS would reject e-filed tax returns with an ITIN when the Forms W-2 contained
an SSN not belonging to the individual e-filing the tax return. The IRS reported that this led to
some E-file Providers 23 replacing the SSN on the Forms W-2 with the ITIN to prevent the tax
return from being rejected. In an attempt to capture data about the nature and extent of e-filed

19
   Internal Revenue Service Individual Taxpayer Identification Number (ITIN) National Task Force Final Report,
dated September 11, 2002.
20
   This consists of 961,410 (59 percent) paper returns with reported wages of nearly $21.9 billion (56 percent), and
660,436 (41 percent) e-filed returns with reported wages of more than $17.5 billion (44 percent).
21
   The Internal Revenue Service’s Individual Taxpayer Identification Number Creates Significant Challenges for Tax
Administration (Reference Number 2004-30-023, dated January 2004).
22
   The period from January through mid-April when most individual income tax returns are filed.
23
   An E-file Provider is a business authorized by the IRS to participant in IRS e-file. The business may be a sole
proprietorship, partnership, corporation, or other entity. Authorized IRS E-file Providers facilitate the filing of
electronic tax returns from taxpayers to the IRS.
                                                                                                          Page 11
                      Actions Are Needed to Ensure Proper Use of Individual
                          Taxpayer Identification Numbers and to Verify
                                or Limit Refundable Credit Claims



tax returns filed with an ITIN and a Form W-2 containing an SSN that did not belong to the
individual filing the tax return, the IRS changed its e-file system to accept these tax returns for
processing.
In September 2006, the IRS concluded that a proposed change to begin accepting e-filed tax
returns with mismatches is consistent with the “tenets of sound stewardship over tax
administration.” In addition, accepting these tax returns via e-file “provides a mechanism to
improve service to America’s taxpayers by removing obstacles which cause undue burden and
discourage participation in the tax system.” The IRS detailed the following benefits that could
be achieved from capturing information from ITIN filers:
   •   Provides the IRS with an improved paper trail which could in turn be used to prevent the
       negative downstream impact of unassigned SSN use within tax administration when the
       SSN legitimately belongs to another individual.
   •   Allows the IRS to validate the appropriateness of a       A number of benefits to improve
       notice through reconciliation of potentially              tax administration were listed in
       unreported wages to an ITIN holder. This would             support of accepting e-filed tax
       reduce burden to a taxpayer whose SSN has been             returns with SSN mismatches.
                                                                    However, the benefits have
       used inappropriately.                                            not been realized.
   •   Enables the IRS to obtain metrics to tailor outreach
       efforts to particular market segments to potentially
       augment enforcement efforts.
The Senate Finance Committee was concerned about the IRS’ decision to expand e-filing to
these individuals. The Senate Finance Committee questioned the rationale behind the IRS’
decision to make it easier to e-file a tax return that contains a stolen or false SSN. The IRS
responded that it changed its policy to allow e-filing to make the process consistent with paper
returns. Further, according to the IRS:
       A related benefit associated with this change includes the fact that when tax returns are
       e-filed, the IRS captures the Form W-2 data, a process that does not happen when tax
       returns are filed on paper. Capturing the Form W-2 data enables the IRS to track the tax
       returns where wage income is reported irrespective of whether the taxpayer identification
       number on the Form W-2 matches the taxpayer identification on the tax return. Without
       this information, if the name and SSN used on the W-2 matches the name and SSN of an
       identity theft victim, the true owner of the SSN would likely be contacted by the IRS to
       determine why he or she had not report[ed] the W-2 income on their tax return. In these
       situations, the case is closed by [the] IRS when the true owner of the SSN provides
       evidence that he or she was a victim [of] identity theft.
Our initial review of the 86 e-filed tax returns included in the sample previously described,
showed that 77 (90 percent) had 115 associated Forms W-2 with ITINs. To confirm the

                                                                                              Page 12
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



“auto-populate” problem, we reviewed the employers’ copies of the Form W-2 records reported
to the IRS for these 77 e-filed tax returns. We identified 51 tax returns (66 percent) with
74 associated Forms W-2 with SSNs that were changed to ITINs. Specifically, the
electronically captured version of the Forms W-2 incorrectly listed the ITIN despite an SSN
being listed on the actual Forms W-2. 24 We estimate that 359,523 of the 660,436 TY 2006 ITIN
e-filed tax returns contained inaccurate Forms W-2 information.
To date, potential benefits cited by the IRS have not been realized as no efforts have been taken
to develop an effective process to accurately capture the data from ITIN-filed tax returns and to
use it to improve tax administration.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 2: Coordinate with electronic tax software preparation companies to
initiate actions to limit the automatic population feature of the taxpayer identification numbers
on Forms W-2 for Forms W-2 associated with e-filed ITIN tax returns.
           Managements Response: Management agreed with this recommendation and has
           already implemented this procedure. For TY 2007, the e-file program was revised to
           discourage the filing of Forms W-2 containing ITINs. The e-file preparation software
           containing the automatic feature that populated the ITIN from the return to the Form W-2
           field had to be disabled so that the ITINs would not be captured as the identification
           number on the Forms W-2. The software should direct the user to input the taxpayer
           identification number from the Form W-2 exactly as it was issued by the employer. This
           information is contained in Electronic Return File Specifications and Record Layouts for
           Individual Tax Returns (Publication 1346), and we will continue to remind the software
           companies of this issue.
Recommendation 3: Develop a process to ensure that accurate tax information is input into
IRS systems from both paper and e-filed tax returns filed with an ITIN.
           Management’s Response: Management disagreed with this recommendation.
           Management stated that e-file software should already direct the user to input the
           taxpayer identification number from the Form W-2 exactly as it was issued by the
           employer to ensure that accurate information is input into IRS systems. With regard to
           paper returns, it is currently cost prohibitive to transcribe Form W-2 data during
           processing.
           Office of Audit Comment: Without correct wage reporting information, there is no
           wage matching to make sure the amount reported as withheld is correct. Management

24
     See Appendix IV for the sampling methodology.
                                                                                            Page 13
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



Legislation should be considered to require an SSN in order to be eligible for the
Additional Child Tax Credit consistent with the requirements for the Earned
Income Tax Credit
Prior to 1996, ITIN filers were entitled to claim the Earned Income Tax Credit. However,
concerns were raised by the Government Accountability Office, the IRS, and Congress regarding
noncompliance with Earned Income Tax Credit requirements. The Government Accountability
Office reported that awarding the Earned Income Tax Credit to illegal aliens 29 was at cross
purposes with Federal Government policies that prohibit illegal aliens from working in the U.S. 30
The law was subsequently changed to deny the Earned Income Tax Credit to individuals who file
a tax return without an SSN valid for work. 31 As such, ITIN filers are not eligible for the Earned
Income Tax Credit. In addition, the IRS was given the authority to systemically identify these
claims and disallow the portion of the refund associated with the erroneous Earned Income Tax
Credit claim through the use of its “math error authority.” 32
The change in the law was made prior to the establishment of the ACTC. However, the language
of the law is such that it could be interpreted to apply to the ACTC. It prohibits aliens residing
without authorization in the U.S. from receiving most 33 Federal public benefits and defines a
Federal public benefit as:
        Any grant, contract, loan, professional license, or commercial license provided by an
        agency of the United States or by appropriated funds of the United States; and any
        retirement, welfare, health, disability, public or assisted housing, postsecondary
        education, food assistance, unemployment benefit, or any other similar benefit for which
        payments or assistance are provided to an individual, household, or family eligibility unit
        by an agency of the United States or by appropriated funds of the United States.
The ACTC is paid with appropriated funds and is provided only after any income taxes are
totally offset by other credits, such as the CTC. As shown in Figure 5, the amount of ACTC
allowed to ITIN filers has increased substantially, from $62 million for TY 2000 to almost
$1.8 billion for TY 2007. The number of tax returns allowed the ACTC increased from 62,000
to more than 1.2 million for the same period. Each ITIN filer receiving the ACTC owed no
taxes.
IRS management’s view is that the law does not provide sufficient legal authority for the IRS to
disallow the ACTC to ITIN filers. In addition, the Internal Revenue Code does not require an


29
   The Government Accountability Office defined an “illegal alien” as a foreign person who is in the U.S. without a
lawful immigration status.
30
   Earned Income Credit – Targeting to the Working Poor (GAO/GGD-95-122BR, dated March 1995).
31
   Personal Responsibility and Work Opportunity Reconciliation Act of 1996, P.L. 104-193 § 401(c).
32
   Math error authority provides the IRS with the ability to systemically identify errors and disallow associated
claims for refunds associated with the erroneous claims.
33
   Except for specified emergency services and programs.
                                                                                                          Page 17
                     Actions Are Needed to Ensure Proper Use of Individual
                         Taxpayer Identification Numbers and to Verify
                               or Limit Refundable Credit Claims



Legislative Recommendation
Recommendation 5: Legislation is needed to clarify whether or not refundable tax credits
such as the ACTC may be paid to filers without a valid SSN and, if these credits may not be
paid, to provide IRS math error authority to disallow associated claims for the credits.
Disallowance of the ACTC to filers without a valid SSN would reduce Federal outlays by
$8.9 billion over 5 years.
       Management’s Response: Management agreed with this recommendation. The
       Wage and Investment Division, in coordination with the Office of Chief Counsel, will
       discuss with the Office of Tax Policy, Department of the Treasury, the merits of an
       administration proposal to amend the Internal Revenue Code to limit eligibility for the
       CTC and ACTC to individuals who have an SSN issued by the SSA other than a number
       issued to an alien not authorized to work in the U.S. This discussion with the Office of
       Tax Policy will include a dialogue on the merits of a proposal to expand the
       Commissioner’s math error authority to any claims for the credits made on returns that
       are disallowed because the individual did not provide the required identifying number.




                                                                                        Page 19
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS has proper controls in
place to detect and deter improper use of ITINs when processing tax returns. To accomplish our
objective, we:
I.      Researched IRS, DHS, SSA, and Government Accountability Office web sites, forms,
        publications, reports, Congressional testimony, and other documentation for background
        information pertaining to ITINs and to determine employers’ legal obligations for hiring
        employees.
II.     Researched the Internal Revenue Code, Federal regulations, and Federal income tax laws
        for information pertaining to ITINs and for information pertaining to the CTC.
III.    Conducted computer analyses to identify trends and characteristics of individual tax
        returns or Wage and Income Statements (Form W-2) containing ITINs and compared the
        results to information reported in a prior TIGTA report. 1
        A. Conducted computer analysis to identify from the IRS Returns Transaction File 2 all
           individual income tax returns 3 processed in Calendar Years 2005 through 2008 that
           were filed by a primary taxpayer 4 with an ITIN and reported wages. We assessed the
           reliability of the Returns Transaction File by performing run-to-run balancing and
           verifying a sample of all fields against the IRS Integrated Data Retrieval System. 5
           The Returns Transaction File data appeared to be reasonably accurate for the purpose
           of this audit.
             1. Conducted computer analysis to identify the preparers of e-filed returns in the
                universe of 1,621,846 TY 2006 returns. We contacted 4 of the top 10 preparers to
                determine if their tax preparation software automatically overwrites the employee
                identification number on the Form W-2.


1
  The Internal Revenue Service’s Individual Taxpayer Identification Number Creates Significant Challenges for Tax
Administration (Reference Number 2004-30-023, dated January 2004).
2
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
3
  The individual income tax returns included Form 1040, Form 1040A, and Form 1040EZ.
4
  A primary taxpayer is the first name and SSN reported on an individual tax return. If a joint return is filed, a
secondary taxpayer is the second name and SSN, e.g., spouse, reported on the return.
5
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                         Page 20
                         Actions Are Needed to Ensure Proper Use of Individual
                             Taxpayer Identification Numbers and to Verify
                                   or Limit Refundable Credit Claims



             2. Conducted computer analysis to identify the number of returns allowed the CTC
                or the ACTC and the total credits allowed for TY 2004 through TY 2007.
                 a) Obtained the same information for TY 2000 and TY 2001 from TIGTA
                    report, The Internal Revenue Service’s Individual Taxpayer Identification
                    Number Creates Significant Challenges for Tax Administration (Reference
                    Number 2004-30-023, dated January 2004).
             3. We separated the universe of 1,621,846 TY 2006 returns into 3 strata:
                1) 1,620,822 returns with wages ranging from $1 to $99,999; 2) 1,011 returns
                with wages ranging from $100,000 to $499,999; and 3) 13 returns with wages of
                $500,000 and more. We used statistical sampling to identify and review
                203 returns from stratum 1 and 18 returns from stratum 2. We used a confidence
                level of 95 percent, a precision level of ± 3 percent, and an expected error rate of
                5 percent for our sampling criteria. We intended to review the 13 returns in
                stratum 3, but only 9 returns were available. In summary, we reviewed a sample
                of 230 returns from the universe.
                 a) Determined if the names and identification numbers on the Forms W-2
                    belonged to the individuals filing the returns by researching IRS records and
                    SSA information.
                 b) For the e-filed returns, determined if the taxpayers’ names and identification
                    numbers on the attached Forms W-2 were accurately input into IRS systems.
        B. Determined the growth in ITIN returns between TY 2001 and TY 2007. We obtained
           the TY 2001 data from TIGTA report, The Internal Revenue Service’s Individual
           Taxpayer Identification Number Creates Significant Challenges for Tax
           Administration (Reference Number 2004-30-023, dated January 2004).
        C. Obtained an extract of the IRS ITIN Database 6 and queried the data to determine
           the volumes of ITINs issued to resident aliens and nonresident aliens in Calendar
           Years 1996 through 2008. We established the reliability of the IRS ITIN Database
           extract by comparing the yearly totals in the ITIN Database to figures received
           separately from the IRS. We also verified the data for several records by conducting
           an online query of the IRS ITIN Database and by comparing the records to
           information on the ITIN Database and on the Integrated Data Retrieval System. The
           ITIN Database data appeared to be reasonably accurate for the purpose of this audit.




6
 The ITIN Database is a modernized application processing system used to control and track Applications for IRS
Individual Taxpayer Identification Number (Form W-7) and Acceptance Agent Applications. It also provides
management information.
                                                                                                        Page 21
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



        D. Conducted computer analysis to identify from the IRS Information Returns Master
           File 7 the number of Forms W-2 received by the IRS and the number of invalid
           Forms W-2 for TY 2003 through TY 2006. We assessed the reliability of the
           Information Returns Master File by performing run-to-run balancing and verifying a
           sample of all fields against the Integrated Data Retrieval System. The Information
           Returns Master File data appeared to be reasonably accurate for the purpose of this
           audit.
        E. Conducted computer analysis to identify from the IRS Information Returns Master
           File all Forms W-2 for TY 2004 through TY 2006 that reported an ITIN in the box
           for the employee’s SSN.
IV.     Met with IRS personnel in the Accounts Management function to discuss issues
        involving individual income tax returns containing ITINs.
        A. Reviewed documentation provided by the Accounts Management function personnel
           and reviewed IRS procedures for correcting returns with errors involving claims for
           the CTC or ACTC.
        B. Reviewed Government Accountability Office report, Earned Income Credit –
           Targeting to the Working Poor (GAO/GGD-95-122BR, dated March 1995) for
           information regarding their concerns about awarding the Earned Income Tax Credit
           to illegal aliens.




7
 The Information Returns Master File contains tax information reported from third parties for the current and prior
5 tax years.
                                                                                                           Page 22
                    Actions Are Needed to Ensure Proper Use of Individual
                        Taxpayer Identification Numbers and to Verify
                              or Limit Refundable Credit Claims



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Gary L. Young, Audit Manager
Sharon A. Buford, Lead Auditor
Elizabeth A. Miller, Senior Auditor
Tina M. Parmer, Senior Auditor
Steven E. Vandigriff, Senior Auditor
Van A. Warmke, Senior Auditor
Lawrence N. White, Senior Auditor
Martha A. Stewart, Information Technology Specialist




                                                                                    Page 23
                   Actions Are Needed to Ensure Proper Use of Individual
                       Taxpayer Identification Numbers and to Verify
                             or Limit Refundable Credit Claims



                                                                      Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Secretary of the Treasury for Tax Policy
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, ETA and Refundable Credits, Wage and Investment Division SE:W:ETARC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Program Manager, Automated Underreporter Program, Wage and Investment Division
SE:W:CP:RC:AUR
Program Manager, ITIN Program Office, Wage and Investment Division SE:W:CAS:SP:ITIN
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                              Page 24
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



                                                                                                  Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •    Reliability of Information – Potential; taxpayer identification numbers on 503,303 Wage
         and Income Statements (Form W-2) and attached to 359,523 TY 2006 e-filed tax returns
         were incorrectly input into IRS systems (see page 6).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify from the IRS Returns Transaction File 1 a universe of
1,621,846 TY 2006 individual tax returns filed by a primary taxpayer with an ITIN and reporting
wages. The returns were processed by the IRS Submission Processing sites during 2007 and
were posted to the Individual Master File. 2 We separated the universe of 1,621,846 TY 2006
returns into 3 strata: 1) 1,620,822 returns with wages ranging from $1 to $99,999;
2) 1,011 returns with wages ranging from $100,000 to $499,999; and 3) 13 returns with wages of
$500,000 and more. We used statistical sampling to identify and review 203 returns from
stratum 1 and 18 returns from stratum 2. We used a confidence level of 95 percent, a precision
factor of ± 3 percent, and an expected error rate of 5 percent for our sampling criteria. We
intended to review the 13 returns in stratum 3, but only 9 returns were available. In summary,
we reviewed a sample of 230 returns from the universe.
The 230 returns (86 e-filed and 144 paper-filed) had 363 Forms W-2 attached to the returns with
wages totaling more than $11.8 million. We examined the 86 e-filed returns and found that
77 (90 percent) had 115 (83 percent) attached Forms W-2 with ITINs. 3 Based on the results, we
suspected that the tax return software was overwriting an employee’s SSN on the Form W-2 to
match the return filer’s ITIN reported on the return.




1
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  The 86 e-filed returns had 139 Forms W-2 attached to the returns.
                                                                                                             Page 25
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



To verify our suspicion, we used the wage amount and employer identification number on the
attached Form W-2 and researched the Information Returns Master File 4 to find the “true”
employee SSN that was reported on the Form W-2 and submitted by the employer. We found
that 51 (66 percent) of the 77 e-filed returns had 74 attached Forms W-2s that showed a different
employee SSN than the employee SSN actually reported by the employer.
Based on the sample results, we estimate that the population contains 359,523 e-filed returns
with 503,303 Forms W-2 affected by the tax return software’s overwrite feature. We are
95 percent confident that number of affected e-filed returns in the population is between 266,686
and 452,360 (the margin of error is ± 92,837). In addition, we are 95 percent confident that the
number of affected Forms W-2 is between 346,869 and 659,737 (the margin of error is
± 156,434).

Type and Value of Outcome Measure:
•   Cost Savings (Funds Put to Better Use) – Potential; ACTC payments of $1.8 billion on
    1,219,643 TY 2007 individual tax returns; $8.9 billion ACTC over 5 years (see page 6). It
    should be noted that realization of this outcome measure is contingent upon interpretation or
    enactment of legislation (see page 17).

Methodology Used to Measure the Reported Benefit:
We used computer analysis to identify from the IRS Returns Transaction File a universe of
1,835,035 TY 2007 individual tax returns filed by a primary taxpayer with an ITIN and reporting
wages. The returns were processed by the IRS Submission Processing sites during 2008 and
were posted to the Individual Master File. We analyzed the returns in the universe and
determined that 568,998 returns were allowed the ACTC only of $755,914,567. None of these
568,998 returns were allowed the CTC because they did not have any tax liability after other
offsetting credits. We also determined that 650,645 returns were allowed both the CTC of
$434,294,565 and ACTC of $1,020,825,261. In summary, a total of 1,219,643 returns were
allowed the ACTC of $1,776,739,828, or almost $1.8 billion annually. If the tax law is changed
to discontinue the ACTC for ITIN filers, ACTC payments of $8.9 billion over 5 years could be
put to better use. The $8.9 billion was computed by multiplying $1,776,739,828 by 5.




4
 The Information Returns Master File contains tax information reported from third parties for the current and prior
5 tax years.
                                                                                                           Page 26
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



                                                                                                 Appendix V

      Methods for Employers to Verify Work Eligibility

To assist employers in meeting new hire verification procedures, the SSA provides various
methods for employers to verify work eligibility. These methods include the Employee
Verification Services, which provide both paper and telephone/fax options, and the Social
Security Number Verification Service, which provides online employee SSN verification. The
SSA provides employers with instructions on what to do if an SSN fails to verify.
The DHS is responsible for identifying and classifying the work status of
foreign individuals in the U.S. and, where needed, enforcing legal action
against illegal workers. In 1996, Congress passed the Illegal Immigration
Reform and Immigrant Responsibility Act,1 which required the SSA and the
U.S. Citizenship and Immigration Services 2 (then the Immigration and
Naturalization Service and now a part of the DHS) to initiate employment
eligibility verification pilot programs. The DHS, working in partnership with
the SSA, implemented the E-Verify program, which electronically compares information on the
Employment Eligibility Verification (Form I-9) with records contained in SSA (444 million
records) and DHS (60 million records) databases.
This program is important because while the SSA is required to provide unauthorized
employment information to the DHS, the DHS does not have to notify the SSA when a person’s
work status changes from unauthorized to authorized. Therefore, unless the individual notifies
the SSA, the SSA information will have incorrect work statuses. By working together with both
the DHS and the SSA, the E-Verify program provides the ability to compare both databases to
provide an employer with the current employment eligibility of an individual.
While use of the E-Verify program currently encompasses only 1 percent of employers, usage is
growing by about 1,000 employers per week, and by summer 2008 the program had
approximately 90,000 employers. To help in this effort, 15 States have passed legislation
requiring, either explicitly or implicitly, that certain employers within those States participate in
the E-Verify program. Other States have pending legislation that would require certain
employers to register and utilize the E-Verify program.
Some of the differences in the DHS E-Verify program and the various SSA programs are shown
in Figure 7.


1
 Pub. L. No. 104 -208, 110 Stat. 3009–546 (1996).
2
 Responsibility for oversight of the verification pilot program was assigned to the Attorney General, who assists
and coordinates the departments involved.
                                                                                                           Page 27
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



                     Figure 7: Characteristics of the E-Verify Program and
                      the SSA’s Various Employer Verification Programs

      Verification       Verifies       Uses name        Provides a death         Verifies        Verifies work
      Programs            users          matching            indicator          information       authorization
                         identity        software           response         without providing       status
                                                                              corrected SSN

EVS Telephone/Fax          No               N/A                 No                  N/A                No
  ERSC 3 (SSA)
EVS Telephone/Fax          No               N/A                Yes 4                N/A               Yes 5
Teleservice Center
      (SSA)
    EVS Registered         No               No                 Yes                  No                 No
     Users (SSA)
    SSNVS (SSA)            Yes              No                 Yes                 Yes                 No
                                                                     4
       E-Verify            No               Yes                Yes                 Yes                 Yes
     (DHS & SSA)
Source: SSA Office of the Inspector General Report, Controls Over Employee Verification Programs (A-03-06-
15036, dated September 2007). EVS =Employee Verification Service and SSNVS = Social Security Number
Verification Service.




3
  Within the SSA, there are two components primarily responsible for phone verifications – Teleservice Centers and
the Employer Reporting Service Center.
4
  While the program does not specifically note that the agency’s records showed a death, the program will not verify
any data related to an individual shown as deceased in the agency’s records.
5
  While the program does not specifically note that the agency’s records showed the individual was unauthorized to
work, the program will not verify any record related to an individual recorded as unauthorized to work in the
Agency’s records.
                                                                                                             Page 28
                          Actions Are Needed to Ensure Proper Use of Individual
                              Taxpayer Identification Numbers and to Verify
                                    or Limit Refundable Credit Claims



                                                                                                   Appendix VI

       Rules for Claiming the Child Tax Credit and the
                 Additional Child Tax Credit

The child must meet all five tests listed below to qualify for the CTC and ACTC.
1. The child must be the taxpayer’s son, daughter, stepchild, foster child, brother, sister,
stepbrother, stepsister, or a descendant of any of them (for example, a grandchild, niece, or
nephew).
2. The child must be under age 17 at the end of the tax year.
3. The child must not have provided over one-half of his or her own support for the tax year.
4. The child must have lived with the taxpayer for more than one-half of the tax year.1
5. The child must be a U.S. citizen, a U.S. national, 2 or a resident of the U.S. U.S. Tax Guide for
   Aliens (Publication 519) states that an individual will be considered a U.S. resident for tax
   purposes if they meet the substantial presence test for the calendar year. To meet this test, the
   individual must be physically present in the U.S. on at least 31 days during the current year,
   and 183 days during the 3-year period that includes the current year and the 2 years
   immediately before.




1
  Child Tax Credit (Publication 972) contains some exceptions to the time lived with the taxpayer.
2
  A U.S. national is an individual who, although not a U.S. citizen, owes his or her allegiance to the United States.
U.S. nationals include American Samoans and Northern Mariana Islanders who chose to become U.S. nationals
instead of U.S. citizens.
                                                                                                              Page 29
      Actions Are Needed to Ensure Proper Use of Individual
          Taxpayer Identification Numbers and to Verify
                or Limit Refundable Credit Claims



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 30
Actions Are Needed to Ensure Proper Use of Individual
    Taxpayer Identification Numbers and to Verify
          or Limit Refundable Credit Claims




                                                    Page 32
Actions Are Needed to Ensure Proper Use of Individual
    Taxpayer Identification Numbers and to Verify
          or Limit Refundable Credit Claims




                                                    Page 34
Actions Are Needed to Ensure Proper Use of Individual
    Taxpayer Identification Numbers and to Verify
          or Limit Refundable Credit Claims




                                                    Page 35
Actions Are Needed to Ensure Proper Use of Individual
    Taxpayer Identification Numbers and to Verify
          or Limit Refundable Credit Claims




                                                    Page 38
